No. __________
IN THE

Supreme Court of the United States
___________________
JERMAINE LENARD MOSS,
Petitioner,
v.
KENNY ATKINSON, WARDEN,
Respondent.
___________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Fourth Circuit
___________________
APPLICATION FOR EXTENSION OF TIME
TO FILE A PETITION FOR WRIT OF CERTIORARI
___________________
WEST VIRGINIA UNIVERSITY
COLLEGE OF LAW
U.S. SUPREME COURT
LITIGATION CLINIC
101 Law Center Drive
Morgantown, WV 26056

LAWRENCE D. ROSENBERG
Counsel of Record
JONES DAY
51 Louisiana Avenue, N.W.
Washington, D.C. 20001-2113
(202) 879-3939
ldrosenberg@jonesday.com

Counsel for Petitioner Jermaine Lenard Moss

To the Honorable John G. Roberts, Jr., Chief Justice of the Supreme Court of
the United States and Circuit Justice for the Fourth Circuit:
1.

Under Supreme Court Rules 13.5, 22, and 30, petitioner Jermaine

Lenard Moss, through counsel, respectfully requests a 60-day extension of time, up
to and including Tuesday, November 26, 2019, to file a petition for a writ of certiorari
to the United States Court of Appeals for the Fourth Circuit to review Moss v.
Atkinson, No. 18-6096. The Fourth Circuit denied Mr. Moss’s petition for rehearing
or rehearing en banc on July 1, 2018. Appendix B. The jurisdiction of this Court will
be invoked under 28 U.S.C. § 1254. The time to file a petition for a writ of certiorari
will otherwise expire on September 27, 2019. The application is timely because it has
been filed on or before 10 days before the date on which the petition is otherwise due.
2.

The decision of the Fourth Circuit presents important questions about

whether a federal prisoner, such as Mr. Moss, may seek habeas relief under 28 U.S.C.
§ 2241 and the “saving clause” of 28 U.S.C. § 2255(e) when a § 2255 petition was
“inadequate or ineffective” to test the legality of detention. There is an “entrenched
split among the courts of appeals” about these specific questions, Bruce v. Warden
Lewisburg USP, 868 F.3d 170, 177 (3d Cir. 2017), which “are of significant national
importance and are best considered by [this] Court at the earliest possible date,”
United States v. Wheeler, 734 F. App’x 892, 893 (4th Cir. 2018) (Agee, J., statement
respecting the denial of rehearing en banc). Compare United States v. Barrett, 178
F.3d 34, 51–52 (1st Cir. 1999), Triestman v. United States, 124 F.3d 361, 363 (2d Cir.
1997), In re Dorsainvil, 119 F.3d 245, 247–48, 251 (3d Cir. 1997), United States v.

Wheeler, 886 F.3d 415, 434 (4th Cir. 2018), Reyes-Requena v. United States, 243 F.3d
893, 904 (5th Cir. 2001), Hill v. Masters, 836 F.3d 591 (6th Cir. 2016), In re Davenport,
147 F.3d 605, 611 (7th Cir. 1998), Alaimalo v. United States, 645 F.3d 1042, 1047 (9th
Cir. 2011), and In re Smith, 285 F.3d 6, 8 (D.C. Cir. 2002) (all allowing saving-clause
relief), with Prost v. Anderson, 636 F.3d 578, 588 (10th Cir. 2011) (Gorsuch, J.), and
McCarthan v. Director of Goodwill Indus.-Suncoast, Inc., 851 F.3d 1076, 1099–1100
(11th Cir. 2017) (en banc) (both rejecting saving-clause relief).
3.

Good cause exists for this motion. Undersigned counsel, Lawrence D.

Rosenberg of Jones Day, directs the West Virginia University College of Law’s
Supreme Court Litigation Clinic, which is co-counsel in this case. The Clinic strives
to have its students participate fully in its cases. Students from last year’s Clinic class
briefed and argued Mr. Moss’s appeal in the Fourth Circuit, and now a new group of
students is participating in this year’s Clinic. As classes at the College of Law started
recently, in late-August 2019, these new Clinic students require additional time to
analyze the record in this case and the applicable law, and to draft the petition for
certiorari, with enough time for Mr. Moss to review it before it is filed. At the same
time, the Clinic is also handling other matters. The Clinic was appointed by the U.S.
District Court for the Northern District of West Virginia in Wilkerson v. Warden,
Williamsburg Federal Correctional Institution, No. 1:18CV211, to brief and argue a
habeas jurisdictional issue, and expects significant work in the next several weeks
that will follow therefrom. In addition, the Clinic was recently retained in Haze v.
Harrison, No. 18-7340 (4th Cir.), in which we expect the opening brief to be due

2

October 28, 2019. In light of the academic calendar and the Clinic’s other obligations,
the requested extension is necessary to allow the students sufficient time to
participate fully in this case.
4.

Mr. Rosenberg himself also has had recently, and will have in the

coming weeks, significant professional and personal commitments that would make
it extremely difficult to complete the petition without an extension. Mr. Rosenberg is
lead counsel in Citigroup Inc., et al. v. Villar, No. 2:19-cv-05310-GW (C.D. Cal.), in
which he had hearings in Los Angeles on August 1, and August 30, and in which he
has briefs due on September 19 and October 10. Mr. Rosenberg is counsel in Precision
Castparts Corp, et al. v. Schulz Holding GmbH & Co., No. 01-1 8-0001-0115 (ICDRAAA), an international-arbitration proceeding in which an evidentiary hearing is set
for October 15 to 17, 2019 in Geneva, Switzerland, and in which substantial briefing
leading up to that hearing is required. Mr. Rosenberg is also lead counsel in
Lufthansa Technik v. Panasonic Avionics Corp., No. 2:17-cv-01453-JCC (W.D. Wash.)
and In re the Matter of Lufthansa Technik, No. 8-19-mc-016-UA-KES (C.D. Cal.), in
which he is coordinating simultaneous document discovery from several parties and
multiple depositions, and in which he had hearings on August 14, and August 30, in
Santa Ana, CA, and is preparing for a hearing on September 27, 2019. Finally, Mr.
Rosenberg serves as lead counsel in numerous actions before the U.S. Court of
Federal Claims, including Owl Creek Asia I, L.P. v. United States, et al., No. 18-281C;
Appaloosa Investment Limited Partnership I, et al., v. United States, No. 18-370C;
Akanthos Opportunity Master Fund, L.P., v. United States, No. 18-369C; CSS, LLC,

3

